OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MOZAMBIQUE’S
IMPLEMENTATION OF THE
PRESIDENT’S MALARIA
INITIATIVE

AUDIT REPORT NO. 4-656-11-005-P
JANUARY 27, 2011




PRETORIA, SOUTH AFRICA
 




                       
 
Office of Inspector General 


January 27, 2011

MEMORANDUM

TO:                  USAID/Mozambique, Mission Director, Todd Amani

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Mozambique’s Implementation of the President’s Malaria
                     Initiative (Report No. 4-656-11-005-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. They have been included in their entirety in Appendix II (excluding attachments).

The final report includes five recommendations to strengthen USAID/Mozambique’s malaria
program. On the basis of management’s comments, we deleted Recommendations 2 and 3 in
the draft report from the final report and renumbered draft report Recommendations 4 through 7
in the final report accordingly. On the basis of management’s comments and supporting
documentation provided, we consider that management decisions have been reached on
Recommendations 1 through 5, with final action taken on Recommendations 2 through 5.
These recommendations are closed upon report issuance. Please provide the Office of the
Chief Financial Officer’s Audit Performance and Compliance Division (M/CFO/APC) with the
necessary documentation to achieve final action on Recommendation 1.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1
Audit Findings................................................................................................................. 3
     Management of Antimalarial Drugs and Insecticide-Treated
     Bed Nets Did Not Always Meet Guidelines ................................................................. 3
     Some Spraying Results Were Not Valid,
     Reliable, or Reported Accurately ................................................................................ 6
     Some Performance Data Was Not Reported Accurately ............................................ 7
     Performance Monitoring and Evaluation Was Incomplete .......................................... 9

Evaluation of Management Comments....................................................................... 12
Appendix I. Scope and Methodology ......................................................................... 14
Appendix II. Management Comments ........................................................................ 17
Appendix III. Performance Indicators ........................................................................ 26
Appendix IV. Outcome Indicators .............................................................................. 27
SUMMARY OF RESULTS
Malaria is a major cause of morbidity and mortality in Mozambique. Approximately 6 million
cases are reported each year, and the disease accounts for about 40 percent of all outpatient
visits and 60 percent of pediatric hospital admissions. Malaria is also the leading cause of
death among children admitted to pediatric services. All 21.5 million people in Mozambique are
at risk for malaria, including an estimated 3.6 million children under 5 and almost 1 million
pregnant women.

The President’s Malaria Initiative (PMI), launched by the United States in 2005, was a 5-year,
$1.2 billion initiative to reduce the burden of malaria in 15 African countries. 1
USAID/Mozambique received its first full year of PMI funding in fiscal year 2007.
USAID/Mozambique will receive its fifth year of PMI funding in fiscal year 2011, which because
of budget delays will fund PMI activities during the 2012 fiscal year. According to PMI’s fiscal
year 2009 Malaria Operational Plan for Mozambique, the initiative’s overarching goal was to
reduce malaria-related mortality by 50 percent through reaching 85 percent of the most
vulnerable populations—children under 5 and pregnant women—with proven preventive and
therapeutic interventions. 2 USAID/Mozambique-funded activities in three intervention areas—
insecticide-treated bed nets, antimalarial drugs, and indoor residual spraying—constituted
roughly 83 percent of the estimated budget for Mozambique’s fiscal year 2009 PMI activities.

To implement the fiscal year 2009 malaria program, USAID/Mozambique had agreements with six
major partners. The audit covered activities implemented by three partners that provided data in
fiscal year 2009: (1) distribution of insecticide-treated bed nets by Population Services
International, under a cooperative agreement for $31 million from April 2006 to August 2011, (2)
implementation of indoor residual spraying by RTI International, through participation in a
centrally funded indefinite quantity contract for $3.6 million in fiscal year 2009 (of which $3.2
million supported activities for indoor residual spraying), and (3) purchase and distribution of
antimalarial drugs by John Snow, Inc., through participation in a centrally funded task order for
$10.9 million in fiscal year 2009 (of which $4.3 million was budgeted to procure, ship, and
support the distribution of antimalarial drugs). The budget for fiscal year 2009 malaria activities
in Mozambique was $19.8 million. The cumulative budget for malaria activities in Mozambique
from the start of PMI through fiscal year 2009 was $63.9 million.

The objective of the audit was to determine whether USAID/Mozambique’s PMI program was
achieving its overarching goal as identified above. The audit found that USAID/Mozambique
had made notable contributions to the national malaria program in fiscal year 2009. 3 However,
as shown in Appendix IV, it was not on track to achieve PMI goals initially set for 2010.



1
  In July 2008, the U.S. Congress passed the Tom Lantos and Henry J. Hyde United States Global
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-
293). Section 303(b) of the act authorized $5 billion over 5 years (fiscal years 2009-2013) for efforts
against malaria.
2
  Specific targets are identified in Appendix IV.
3
  See Appendix III for specific indicators tested.


                                                                                                 1
The audit noted specific fiscal year 2009 achievements, including distribution of approximately
1.2 million insecticide-treated bed nets, compared with a target of 1 million. 4 Similarly, 2.2
million antimalarial drug treatments were distributed, compared with a target of 2.4 million. The
implementing partner reported that 571,194 houses were sprayed in the 2009 spraying season
compared with a revised target of 523,773 and audit tests confirmed considerable coverage;
however, because of weaknesses in data quality, the audit was not able to determine the actual
number of houses sprayed.

Despite recognized malaria program achievements, the audit found that:

•   Management of antimalarial drugs and insecticide-treated bed nets did not always meet
    guidelines (page 3).

•   Some spraying results were not valid, reliable, or reported accurately (page 6).

•   Some performance data was not reported accurately (page 7).

•   Performance monitoring and evaluation was incomplete (page 9).

The report recommends that USAID/Mozambique:

1. Develop and implement a plan with milestones to provide training or technical assistance to
   appropriate staff at warehouse and health-care facilities that store and dispense USAID-
   funded antimalarial drugs and insecticide-treated bed nets so that staff are capable of
   properly maintaining inventory records and managing stocks effectively (page 6).

2. Develop and implement a plan with milestones to train staff of the indoor residual spraying
   program to record data, maintain source documents, maintain data systems, and report
   program results properly (page 7).

3. Establish and implement written procedures to ensure that program results reported by
   implementing partners in quarterly and annual reports are consistent with the mission’s
   performance indicators and annual performance report (page 8).

4. Provide training to mission staff on the requirements for data quality assessments outlined in
   USAID’s Automated Directives System, and develop policies and procedures to make
   copies of data quality assessments easily accessible to mission staff and implementing
   partners (page 11).

5. Develop and implement a schedule to conduct periodic site visits that entail data quality
   testing and verification, and document the results of those visits (page 11).

Detailed findings appear in the following section. The audit scope and methodology are
described in Appendix I, USAID/Mozambique’s comments appear in their entirety as Appendix
II, and our evaluation of management comments is included on page 12. The mission’s main
malaria performance indicators and outcome indicators are shown with targets and results in
Appendixes III and IV, respectively.


4
  Although there was no target in the performance report for “nets distributed,” the mission stated that the
target for distribution in fiscal year 2009 was 1 million nets.


                                                                                                          2
AUDIT FINDINGS
Management of Antimalarial Drugs
and Insecticide-Treated Bed Nets
Did Not Always Meet Guidelines
In fiscal year 2009, USAID/Mozambique budgeted $10.4 million for the purchase of malaria
commodities (53 percent of total planned obligations for fiscal year 2009 malaria activities). Of
this amount, the mission budgeted approximately $3.4 million to procure and ship 2.4 million
treatments of antimalarial drugs, and $6.6 million to procure 1 million insecticide-treated bed
nets.

When USAID-funded antimalarial drugs arrived in Mozambique, they were delivered
immediately to a national warehouse in Maputo and then to provincial warehouses throughout
the country. Similarly, insecticide-treated bed nets were delivered to one of four national
warehouses and then to provincial warehouses throughout the country. The antimalarial drugs
and insecticide-treated bed nets were considered to be distributed once they were received and
inventoried by provincial officials. From there, with few exceptions, 5 the Ministry of Health
allocated the commodities to hospitals, antenatal clinics, and rural health centers and small rural
health posts (shown below) to be administered to the appropriate patients: for antimalarial
drugs, patients with test-confirmed malaria cases, and for insecticide-treated bed nets, pregnant
women and children under 5.




      This small rural health post (left) and rural health center (right) in Zambézia Province
      dispense USAID-funded antimalarial commodities. (Photos by OIG, June 2010)

Guidelines for the Storage of Essential Medicines and Other Health Commodities 6 and World
Health Organization (WHO) specifications on good storage 7 provide instructions on receiving

5
  Population Services International, the implementing partner for distribution of insecticide-treated bed nets, managed
the provincial warehouses in Maputo and Zambézia Provinces and had additional management and oversight
responsibilities in those locations.
6
  John Snow, Inc./DELIVER for USAID, in collaboration with the World Health Organization, 2003.
7
   WHO Expert Committee on Specifications for Pharmaceutical Preparations: Thirty-Seventh Report, Technical
Report Series 908, 2003.


                                                                                                                     3
and arranging commodities, keeping track of products in the storeroom, maintaining the quality
of the products, and setting up a medical store. Commodity management is also covered by the
Government Accountability Office’s (GAO’s) Standards for Internal Control in the Federal
Government, 8 which requires the establishment of physical control to safeguard vulnerable
assets such as inventory. Such assets should be counted periodically and reconciled with
control records to help reduce the risk of errors, fraud, and misuse. All documentation and
records should be properly managed and maintained.

Although the Ministry of Health inherited program control once the commodities were distributed
to the provincial warehouses, proper management of USAID-funded commodities at each stage
of the supply chain is imperative to ensure their availability to intended beneficiaries.
Nevertheless, audit tests identified several problems in the management of USAID-funded
antimalarial drugs and insecticide-treated bed nets after they were distributed to the respective
provincial warehouses.

Management of Antimalarial Drugs. Audit tests identified concerns with the management of
USAID-funded antimalarial drugs at each of the 11 health-care facility pharmacies and drug
storage areas visited.

•     Stock records were not maintained adequately. Although health facilities visited
      produced some well-maintained stock records, the health facilities also produced some
      stock records that did not correspond with inventory on hand, indicating unaccounted-for
      quantities of antimalarial treatments. For example, at one health facility, current stock
      records indicated that 1,040 treatments of one drug formulation were on hand, whereas only
      570 treatments were accounted for following a physical inventory (470 treatments were
      unaccounted-for). Furthermore, one health facility visited had not updated its stock records
      since March. The three small rural health posts visited did not maintain stock records at all.

•     Inventory distribution records and receipts were not always available. One provincial
      warehouse produced only three distribution invoices for shipments of antimalarial drugs to a
      rural hospital, whereas the rural hospital’s records indicated receipt of five additional
      shipments of antimalarial drugs during the same time period under review. Similarly, district
      warehouse distribution records did not fully correspond with receipts at any of the three
      small rural health posts that were supplied by the district warehouse in fiscal year 2009. For
      example, one health post provided records showing receipt of only two shipments, whereas
      the district warehouse recorded seven deliveries during the period in question.

•     First-expired, first-out inventory management was not used. One health center was not
      dispensing antimalarial drugs on a first-expired, first-out basis. The center was dispensing
      antimalarial drugs with an expiration date of September 2011, while the same drugs with an
      expiration date of November 2010 were still in the original, unopened shipping containers.
      Additionally, several provincial and district health workers expressed concern about the
      large quantity of antimalarial drugs due to expire in November 2010. Although the health
      facilities visited were well stocked with antimalarial drugs, the provincial warehouse that
      supplies these facilities still had 146,100 treatments on hand, most packaged in kits with a
      November 2010 expiration date. Warehouse staff indicated that 9,959 treatments remaining
      in the provincial warehouse had expired in May. Workers at one district hospital indicated
      that 1,250 treatments expired between January and May and anticipated that even more
      would expire in June.

8
    GAO/AIMD-00-21.3.1, November 1999, pp. 14-15.


                                                                                                  4
•   Expired antimalarial drugs dispensed. One health-care provider had unknowingly
    dispensed expired antimalarial drugs to patients. The worker was not aware that three out
    of the four treatment formulations of the USAID-funded antimalarial drug (pictured below)
    were expired.




               Three out of the four treatment formulations in this box at a
               small rural health post near Nicoadala are expired. (Photo by
               OIG, June 2010)

Management of Insecticide-Treated Bed Nets. As with antimalarial drugs, USAID-funded
long-lasting insecticide-treated bed nets were not always managed properly after being
distributed to the provincial warehouses. At one provincial warehouse, the audit disclosed the
following problems.

•   Storage best practices were not followed. Contrary to best practices for storage,
    insecticide-treated bed nets were stacked very close together and in inconsistently layered
    rows, making physical inventory and inspection extremely difficult. Additionally, the
    inventory assistant did not employ the best practice of stock rotation for the nets received
    from the provincial warehouse. Instead, the inventory assistant was using last-in, first-out
    management, which left a substantial amount of stock that appeared to have been in the
    storeroom since the beginning of the program. Although packaged insecticide-treated bed
    nets have an extended shelf life, mission staff and the inventory assistant agreed that stock
    rotation is a best practice that should be employed.

•   Inventory could not be accounted for. The provincial warehouse staff could not account
    for 1,916 nets in its stock. Though 35,517 nets were listed in the warehouse’s inventory
    records, only 33,601 nets were on hand when the audit team took a physical inventory. The
    inventory assistant claimed to conduct a physical inventory twice a year; however, the audit
    team noted that she had been systematically miscounting a large quantity of nets at the core
    of the net stockpile. Had the inventory assistant employed recommended stock
    management techniques, including the first-in, first-out method (or first-expired, first-out if
    applicable), the missing stock would likely have been identified at an earlier stage. The
    inventory assistant did not know why or when the 1,916 nets had gone missing.



                                                                                                 5
These problems occurred in part because some warehouse and health-care facility staff could
not maintain inventory management records and did not know how to properly manage stocks
of antimalarial drugs and insecticide-treated bed nets. Mission staff also attributed the
quantities of expired or expiring drugs to the Ministry of Health’s delay in adopting the USAID-
funded antimalarial drug, Coartem, as the first-line treatment. 9 Additionally, neither USAID nor
the implementing partner had regularly conducted site visits to the provincial warehouse to
confirm inventory or data quality. As a result of weaknesses in warehouse and health-care
facilities’ internal controls for commodity management, there was a risk that the antimalarial
drugs and insecticide-treated bed nets funded by USAID/Mozambique were improperly handled
and misused. To strengthen management of USAID-funded commodities, we make the
following recommendation.

    Recommendation 1. We recommend that USAID/Mozambique develop and implement
    a plan with milestones to provide training or technical assistance to appropriate staff at
    warehouse and health-care facilities that store and dispense USAID-funded antimalarial
    drugs and insecticide-treated bed nets so that staff are capable of properly maintaining
    inventory records and managing stocks effectively.

Some Spraying Results Were
Not Valid, Reliable, or Reported
Accurately
USAID’s results-oriented approach to management calls for its managers to consider
performance information when making decisions. Sound decisions require valid, reliable, and
accurate information, and data should be of sufficiently high quality to support the appropriate
level of management decisions. USAID’s Automated Directives System (ADS) Chapter 203
continues by stating that performance data should be as complete and consistent as
management needs and resources permit. 10 Additionally, GAO’s Standards for Internal Control
in the Federal Government 11 calls for transactions and significant events to be accurate and
clearly documented, with the documentation readily available.

Contrary to the guidance, records supporting the number of houses sprayed (total shown in
Appendix III) during the fiscal year 2009 indoor residual spraying campaign conducted from July
to October 2009 were not always valid, reliable, or reported accurately. Audit tests disclosed
several problems with the transcription of data from the individual daily spray cards completed
by the spray operators to the implementing partner’s database, which reported 571,194 houses
sprayed for the annual spray season. In a sample tested from a selection of spray days in three
districts, auditors confirmed records for only 28,090 houses out of a total of 35,317 houses
reported as sprayed in the implementing partner’s database. The discrepancies in reporting
resulted from mathematical mistakes and unsupported records. Data quality problems occurred
from initial recording and tallying through database entry, as detailed in the following section.

•   Daily spray cards. Spray operators did not always correctly add the total number of
    houses recorded on their daily spray cards. Additionally, daily spray cards for 13 days of
9
   According to mission staff, USAID/Mozambique initiated the procurement process for Coartem after being informed
by the Government of Mozambique that Coartem would be the new first-line treatment. However, unforeseen delays
at the Ministry of Health and an extensive trial project for packaging and distribution delayed the roll out of Coartem,
even though it had already been procured.
10
   ADS 203.3.2.2.b and ADS 203.3.5.
11
   GAO/AIMD-00-21.3.1, November 1999, p. 15.


                                                                                                                      6
      spraying were completely missing at one base location, leaving no record of spraying 5,701
      houses.

•     Daily base summary cards. Base managers did not always correctly record their base’s
      spray teams’ daily results on the daily base summary cards. Managers made occasional
      errors transcribing the totals from the daily spray cards to the summary cards, and
      miscalculated summary totals. Additionally, managers could not locate some daily base
      summary cards.

•     Implementing partner’s database. The implementing partner’s data manager sometimes
      incorrectly entered the daily base summary card totals into the main database.

•     Summary schedule. The implementing partner’s master schedule that was generated by
      the database and summarized the entire spray season for the performance indicator
      contained two additional 1,000-house mathematical errors in one district reviewed.

Although most of the data problems noted above can be attributed to human error, a robust
system of internal control should prevent or quickly detect these errors. Inadequate training led
to insufficiently performed internal control procedures. For example, the implementing partner’s
data manager did not know to verify the addition on the summary base cards before entering
the data into the system, or spot-check data quality on daily spray cards. As for the missing
spray records, Ministry of Health staff stated that the 13 days of unaccounted-for records in
question went missing during transport from the spray base to the district storage area at the
end of the spray season.

Because of mathematical errors and lost records, the mission had no assurance that reported
results were valid, reliable, and reported accurately by the implementing partner to the mission.
Without reliable data, USAID managers are missing a key tool for making sound, performance-
based decisions.

To strengthen the system of reporting results under the mission’s indoor residual spraying
program, we make the following recommendation.

      Recommendation 2. We recommend that USAID/Mozambique develop and implement
      a plan with milestones to train appropriate staff of the indoor residual spraying program
      to record data, maintain source documents, maintain data systems, and report program
      results properly.

Some Performance Data Was Not
Reported Accurately
As detailed in the previous finding, USAID’s results-oriented approach to management calls for
its managers to consider performance information when making decisions. Performance data
should be of sufficiently high quality to support the appropriate level of management decisions
and should be as complete and consistent as management needs and resources permit. ADS
203 12 also states that USAID missions can strengthen performance management by involving
partners in the performance management process. This includes collecting, interpreting, and
sharing performance monitoring information and experience, jointly defining a critical set of

12
     ADS 203.3.2.2 and ADS 203.3.5


                                                                                                  7
performance indicators, and integrating USAID performance management efforts with similar
processes of partners. Failure to have consistent performance indicator reporting systems is not
only inefficient but also introduces additional risk of reporting erroneous results.

Despite the above criteria, fiscal year 2009 results for two performance indicators were not
reported accurately by the mission in its annual performance report.

•   Performance Indicator 3. The mission reported that 1.0 million insecticide-treated bed nets
    were distributed or sold with U.S. Government funds. Source documents, however,
    indicated that the implementing partner had distributed approximately 1.2 million nets in
    fiscal year 2009. Additionally, the target for this indicator was omitted from the fiscal year
    2009 performance report.

•   Performance Indicator 4. The mission reported that 2.4 million artemisinin-based
    combination treatments (antimalarial drugs) were distributed through U.S. Government
    support. Source documents, however, indicated that the implementing partner had
    distributed only 2.2 million treatments in fiscal year 2009.

The mission attributed the above discrepancies to the timing of reporting: mission performance
reports must sometimes be prepared before the final results have been tabulated by
implementing partners. As a result, the mission may be required to report approximations rather
than actual results. Furthermore, implementing partners were not clearly reporting on the
mission’s main performance indicators in their quarterly and annual progress reports, and did
not provide the cumulative annual results for Performance Indicators 3 and 4.

Because of the difficulty using quarterly and annual progress reports as a basis for its reported
results in the performance report, mission officials stated that they sometimes requested
supplemental data on annual results from partners through a series of e-mails. This process
raised the risk of introducing additional reporting errors into the system. Moreover, auditors
were unable to locate the corresponding source for reported results in the e-mail documentation
provided by the mission. However, targets and reported results for these two indicators (1)
exactly equaled each other and (2) directly correlated with targets in the fiscal year 2009 malaria
operational plan. It follows that the fiscal year 2009 malaria operational plan targets could have
been input as placeholders for results in the performance report and never updated. As for the
omitted target, staff stated that the mission mistakenly reported the target in the result column,
rather than the actual result.

For an efficient operation, implementing partners’ reports should be consistent with the
mission’s annual performance indicators. Therefore, to strengthen the system of reporting
results under the mission’s malaria program, we make the following recommendation.

    Recommendation 3.          We recommend that USAID/Mozambique establish and
    implement written procedures to ensure that program results reported by implementing
    partners in quarterly and annual reports are consistent with the mission’s performance
    indicators and annual performance report.




                                                                                                 8
Performance Monitoring and
Evaluation Was Incomplete
ADS Chapter 203, “Assessing and Learning,” provides guidance to USAID missions on
determining how well activities are achieving their intended results. As outlined in ADS 203, 13
each assistance objective team must prepare a complete performance management plan for
each assistance objective, or program area, for which they are responsible and include all
indicators that will be used to assess progress over the life of the program. Contrary to
guidance, USAID/Mozambique’s performance management plan for fiscal year 2009 malaria
activities omitted some indicators that were used to track malaria program progress.

Additionally, ADS 203 14 states that USAID performance data reported to Washington for
Government Performance and Results Act 15 reporting purposes, or for reporting externally on
Agency performance, must have had a data quality assessment during the 3 years before
submission. This section of ADS 203 also recommends data quality assessments to inform
missions of data strengths and weaknesses and of the extent to which data can be trusted when
reporting and making management decisions. However, USAID/Mozambique did not complete
data quality assessments for all data that were externally reported for fiscal year 2009 malaria
performance indicators.

Furthermore, ADS 203 16 and USAID/Mozambique’s mission orders pertaining to monitoring and
evaluation 17 and site visits 18 instruct the mission on how to conduct data quality testing during
site visits—for example, including comparing central office records with field site records spot-
checking partners’ data for validity and reliability, and documenting the findings. Despite the
above criteria, USAID/Mozambique had not been regularly completing or documenting data
quality testing during site visits.

Performance Management Plan Was Not Complete. The performance management plan for
the fiscal year 2009 malaria program did not contain all of the performance indicators. The plan
did not contain Performance Indicators 1 and 5 (shown in Appendix III), which concerned the
number of nets purchased and the number of people trained in malaria treatment or prevention.
Also, the plan did not include reference sheets for any of the malaria indicators reported in the
fiscal year 2009 performance plan and report, which is distributed for use outside of the mission.

Indicator reference sheets provide a quick but complete outline of each performance indicator.
Reference sheets should also address the quality of data from implementing partners, which
were the primary sources of program data.          Without complete reference sheets, the
performance management plan did not address the quality of the data used to report on
performance indicators.

The mission attributed the omission of indicators from the performance management plan to the
development of a new assistance strategy that entailed new assistance objectives and a new
performance management plan, and the decision to change some indicators that the mission
felt would better show the impact of the program. Because of these changes and impending

13
   ADS 203.3.3.
14
   ADS 203.3.5.2.
15
   Public Law 103-62.
16
   ADS 203.3.5.3.
17
   Mission Order No. MO200-2, “Performance Monitoring and Evaluation,” August 8, 2009.
18
   Mission Order No. MO200-1, “Site Visit Reporting,” October 25, 2007.


                                                                                                 9
new performance management plan, the mission chose not to update the performance
management plan that had been in effect since fiscal year 2007.

Without a complete performance management plan, USAID/Mozambique did not have
reasonable assurance that program data met acceptable standards of validity, reliability, and
accuracy. Without such assurance, managers may have lacked the performance information
needed to make sound decisions. Had the mission established and enacted procedures to
maintain a complete plan, some of the data problems previously identified in the report could
have been prevented or reduced.

During audit fieldwork, the mission was in the process of preparing a new performance
management plan for fiscal year 2010 that incorporated the five malaria program performance
indicators. The plan also included indicator reference sheets that provide for data quality
testing, as well as a schedule for conducting data quality assessments by year’s end. With
management approval of the new performance management plan, which was in final draft form
as of June 2010, the mission has addressed the deficiencies in the fiscal year 2007
performance management plan set forth above; therefore, this report makes no
recommendations concerning this issue.

Data Quality Assessments Were Not Always Completed. While data quality assessments
had been completed for some indicators that were reported to USAID/Washington or external
sources, mission staff stated that data quality assessments had not been completed for all
indicators—specifically, for Performance Indicators 1, 3, and 5 (identified in Appendix III of this
report). Moreover, USAID/Mozambique’s data quality assessments for fiscal year 2009 malaria
activities did not provide for periodic sampling and review of implementing partners’ data to
ensure completeness, accuracy, and consistency or for determining whether the partners
appropriately addressed known problems with data quality.

Mission staff attributed the lack of data quality assessments to a misunderstanding of guidance.
According to one mission employee, data quality assessments were required only for indicators
included in the performance management plan. Because some indicators were not included in
the plan, data quality assessments were not completed for all indicators, even those that were
reported to USAID/Washington and external sources in the mission’s annual performance plan
and report.

Additionally, mission staff demonstrated the difficulty of locating data quality assessments and
reproducing them from the mission’s document database. Mission staff confirmed on two
occasions that a data quality assessment had not been completed for the indoor residual
spraying indicator; however, at the conclusion of audit field work a mission employee uncovered
a line item in the database that indicated a data quality assessment had been completed for this
indicator in 2007. The mission employee was unable to reproduce the data quality assessment
on the spot but provided it to the audit team at a later date. If data quality assessments are not
easily accessible to mission staff, they will not be a useful tool for internal control.

As a result of a misunderstanding and difficulty with the document management system, the
data validity and reliability problems discussed in this report were not identified and addressed
before the mission reported results for its five malaria indicators. The mission scheduled data
quality assessments to begin at the end of fiscal year 2010. However, a data quality
assessment for the indicator on distribution of nets was not scheduled because nets have been
consolidated with other commodities into one indicator for socially marketed products.
Nevertheless, because the individual commodity data contributes to the total reported result, a


                                                                                                10
data quality assessment should be conducted specifically for each commodity covered by the
indicator, including insecticide-treated bed nets.

Without adequate testing for data integrity, the mission did not have reasonable assurance that
data used for performance-based decision making and reporting were valid and reliable.
Unreliable data can undermine the appropriateness of management decisions and managers’
ability to evaluate the effectiveness and efficiency of their programs. Had procedures been in
place to complete data quality assessments in a timely manner and to address the
shortcomings identified in those assessments, the problems of data validity and reliability
identified in this report could have been corrected. For these reasons, we make the following
recommendation.

   Recommendation 4. We recommend that USAID/Mozambique provide training to
   mission staff on the requirements for data quality assessments outlined in the
   Automated Directives System and develop policies and procedures to make copies of
   data quality assessments easily accessible to mission staff and implementing partners.

Site Visits Did Not Incorporate Data Quality Testing. Although the malaria team had
conducted some site visits, it had not documented its efforts to verify data validity and reliability
during those visits. According to mission officials, the failure to conduct and document data
quality testing resulted from competing priorities during site visits—for example, the need to
focus on activity implementation and examine the quality of services provided.

Without active monitoring through regular site visits and data verification, the mission did not
always have reasonable assurance that data used for performance-based decision making and
for reporting were valid and reliable. A process to monitor data quality in conjunction with
regular site visits could have identified documentation and reporting shortcomings, as well as
specific problems with commodity storage and distribution and quality of indoor residual
spraying data previously discussed in this report. To improve the data-monitoring aspect of site
visits, we make the following recommendation.

   Recommendation 5. We recommend that USAID/Mozambique develop and implement
   a schedule to conduct periodic site visits that entail data quality testing and verification,
   and document the results of those visits.




                                                                                                   11
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/Mozambique agreed with a number of
recommendations and provided general comments on several issues. On the basis of these
comments, we made changes to the report, including the deletion of a section from the draft
report entitled “Antimalarial Drugs Not Dispensed in Accordance with National Malaria Policy.”
Subsequent communications with the mission confirmed that although newly updated
Government of Mozambique policy requires “confirmation of suspected malaria cases prior to
prescribing medication,” given the general lack of laboratory facilities throughout Mozambique,
clinicians are still allowed to treat for malaria without confirming its diagnosis. As a result of this
clarification and deletion of this section from the report, we removed Recommendations 2 and 3
and renumbered Recommendations 4–7 as Recommendations 2–5. Management comments
on Recommendations 1–5 are summarized below, followed by the audit team’s evaluation of
management comments.

Regarding Recommendation 1, the mission agreed to develop and implement a plan with
milestones to provide training or technical assistance to appropriate staff at warehouse and
health-care facilities that store and dispense USAID-funded antimalarial drugs and insecticide-
treated bed nets so that staff are capable of properly maintaining inventory records and
managing stocks effectively. The mission’s response included the caveat that USAID consigns
and transfers ownership of most malaria commodities to the Government of Mozambique. The
mission stated that a logistics management information system, supported by USAID partners,
was being implemented, while training modules and standard operating procedures on good
warehouse management—including receiving, managing stock, counting inventory, dispatching,
and conducting inventory investigations—have been developed. Also, JSI/Deliver, one of the
mission’s implementing partners, was scheduled to conduct a 2-day workshop for training of
trainers on the management and control of drugs in the framework of strengthening monitoring
and evaluation. This workshop was to be carried out by the end of 2010 and to include USAID
implementing partners. In subsequent correspondence, the mission stated that training on the
logistics management information system had been conducted in all ten provinces and that pilot
implementation of the system would take place in February 2011. On the basis of
management’s comments, a management decision has been reached on Recommendation 1.

Regarding Recommendation 2 (Recommendation 4 in the draft report), the mission stated that it
had already instituted a data quality assessment audit of the indoor residual spraying project
based on preliminary audit recommendations. As a result, the mission, in collaboration with the
National Malaria Control Program and other partners, is implementing the following: (1)
establishing an efficient data flow system that will carry accurate and timely information from the
spray operator level to the provincial level with minimum opportunities for error; (2) ensuring the
availability of the necessary human and material resources; (3) developing a password-
protected data security and storage system for spray data; (4) introducing new data collection
and entry tools that will promote efficiency at all levels of the monitoring and evaluation system
and enable PMI and the National Malaria Control Program to track performance in real time
throughout the spray round; (5) enhancing supervision of data recording and entry to ensure
accuracy; and (6) improving filing and archiving to facilitate data tracing and verification. These
activities were completed by the end of December 2010, as confirmed telephonically in January



                                                                                                12
2011. On the basis of management’s comments and completion of recommended training, a
management decision has been reached and final action taken on Recommendation 2.

Regarding Recommendation 3 (Recommendation 5 in the draft audit report), the mission agreed
to establish and implement written procedures to ensure that program results reported by
implementing partners in quarterly and annual reports are consistent with the mission’s
performance indicators and annual performance report. Specifically, the mission stated that its
new performance management plan, approved September 2010, reflects this audit
recommendation.      Furthermore, the mission stated that it continues to collaborate with
implementing partners to improve data quality through initiatives such as a standardized
reporting template.    On the basis of management’s comments and the supporting
documentation provided, a management decision has been reached and final action has been
taken on Recommendation 3.

Regarding Recommendation 4 (Recommendation 6 in the draft audit report), the mission agreed
to provide training to mission staff on the requirements for data quality assessments outlined in
the Automated Directives System and to develop policies and procedures to make copies of
data quality assessments easily accessible to mission staff and implementing partners. To
implement this recommendation, the mission stated that its newly approved performance
management plan contains a schedule for conducting data quality assessments on each
individual indicator. Additionally, the mission hired a monitoring and evaluation consultant to
provide additional support in conducting data quality assessments for all performance
indicators. Furthermore, the mission’s monitoring and evaluation specialist conducted a
workshop on data quality assessment on October 20, 2010, for all assistance and contracting
officer’s technical representatives and activity managers so that they are better prepared to
effectively implement these roles and responsibilities. In additional correspondence, the
mission stated that all data quality assessments are currently made available and accessible to
USAID/Mozambique staff on the mission’s shared drive. In addition, the monitoring and
evaluation specialist has started sending e-mails with hyperlinks to all staff when data quality
assessments are updated.            On the basis of management’s comments, additional
correspondence, and supporting documentation, a management decision has been reached
and final action taken on Recommendation 4.

Regarding Recommendation 5 (Recommendation 7 in the draft audit report), the mission agreed
to develop and implement a schedule to conduct periodic site visits that entail data quality
testing and verification, and will document the results of those visits. The mission stated that
the new performance management plan incorporates conducting data quality assessment of
each PMI indicator during site visits when appropriate and feasible, as well as documenting the
results in trip reports. A quarterly site visit schedule has been compiled and will continue to be
updated. Additionally, the newly hired site monitoring and evaluation specialist will be
responsible for verifying that periodic site visits happen and are documented and reported
adequately. On the basis of management’s comments and the supporting documentation
provided, a management decision has been reached and final action has been taken on
Recommendation 5.




                                                                                               13
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with generally
accepted government auditing standards. 19 Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objective.           This objective was to determine whether
USAID/Mozambique’s President’s Malaria Initiative was achieving its main goal of reducing
malaria mortality by 50 percent by the year 2010, compared with pre-PMI levels, by reaching 85
percent of the most vulnerable groups—children under the age of 5 and pregnant women—with
preventive and therapeutic malaria interventions. We believe that the evidence obtained provides
that reasonable basis. Audit fieldwork was conducted at USAID/Mozambique and at selected
offices and activity sites of the implementing partners in Mozambique from May 24 to June 11,
2010, and covered fiscal year 2009 PMI activities.

To implement the program, USAID/Mozambique had agreements with six major partners in fiscal
year 2009. The audit covered the activities that contributed most of the reported results and were
implemented by the three main partners active through September 30, 2009: (1) Population
Services International, under a cooperative agreement for $31 million from April 2006 to August
2011, (2) RTI International, through participation in a centrally funded indefinite quantity contract
for $3.6 million in fiscal year 2009 (of which $3.2 million supported indoor residual spraying
activities), and (3) John Snow, Inc., through participation in a centrally funded task order for
$10.9 million in fiscal year 2009 (of which $4.3 million was budgeted to procure, ship, and
support the distribution of antimalarial drugs). The budget for fiscal year 2009 malaria activities
in Mozambique was $19.8 million.

The three intervention areas covered by the audit—indoor residual spraying, insecticide-treated
bed nets, and case management (antimalarial drugs)—constituted roughly 83 percent of the
estimated budget for PMI activities in 2009. The audit, in general, involved (1) validating
reported results related to these three key interventions, and (2) reviewing and assessing
relevant management controls.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and reporting of performance
measures and indicators. Specifically, the audit evaluated the following documents prepared by
USAID/Mozambique:

•     Fiscal year 2009 malaria operational plan

•     Fiscal year 2009 full performance plan and report

•     Performance management plan for Strategic Objective 8, “Increased Use of Child Survival and
      Reproductive Health Services in Target Areas,” approved in fiscal year 2007 and in use until
      approval of the new draft plan



19
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                              14
                                                                                              Appendix I


•     May 2010 draft version of the performance management plan for the health assistance
      objective, which is linked to the country assistance strategy for fiscal years 2009–14

•     Site visit reports

•     Implementing partner agreements

•     Certification required under the Federal Managers’ Financial Integrity Act of 1982 20

The audit also reviewed other sources, including:

•     Implementing partner work plans and progress reports

•     The President’s Malaria Initiative Fourth Annual Report—Sustaining Momentum Against
      Malaria: Saving Lives in Africa, April 2010

•     The Performance Management Toolkit

•     Warehouse and health-care facility registers and documents

The audit team conducted fieldwork at USAID/Mozambique from May 24 to June 11, 2010. Based
in Maputo, we visited the main offices of Population Services International, RTI International, and
John Snow, Inc.; the central warehouse; and four health-care facilities. We conducted extensive
fieldwork in Zambézia Province in central Mozambique and made field visits to RTI International’s
field office, three district spray operation offices, two warehouses, and nine health-care facilities.
We also visited the Ministry of Health’s provincial office and warehouses in Xai-Xai in Gaza
Province.

During fieldwork, the audit team interviewed key USAID/Mozambique personnel, implementing
partners, warehouse and health-care facility staff, and officials of the Government of Mozambique
to assess, in general, the status of program implementation, the effectiveness of controls, and the
oversight of program activities.

Methodology
To determine whether the program was achieving its main goals, the audit team initially
reviewed targets and reported results for the mission’s five malaria program performance
indicators for fiscal year 2009 (Appendix III). The audit team also interviewed mission staff and
reviewed relevant program documents, such as the President’s Malaria Initiative Fourth Annual
Report and USAID/Mozambique’s fiscal year 2009 malaria operational plan, to gain an
understanding of the program as it is implemented in Mozambique.

As shown in Appendix III, we selected three indicators for this audit: (1) number of houses
sprayed with indoor residual spraying with U.S. Government (USG) support, (2) number of
insecticide-treated bed nets distributed or sold with USG funds, and (3) number of artemisinin-
based combination treatments purchased and distributed through USG-support. For these
indicators, the audit team judgmentally selected sites in Mozambique to test performance

20
     Public Law 97–255, as codified in 31 U.S.C. 3512.




                                                                                                     15
                                                                                   Appendix I


results by comparing reported information with source documents. We selected sites and
sample sizes based on time, resource, and geographic constraints. Because we used
judgmental sampling, the results of these tests cannot be projected to the entire populations.

The auditors reviewed the agreements, progress reports, and work plans of the major
implementing partners that contributed results to the tested indicators. The auditors also
reviewed applicable laws, regulations, and USAID policies and procedures pertaining to
USAID/Mozambique’s malaria program—including the Federal Managers’ Financial Integrity Act
of 1982 certification, Automated Directives System Chapters 202 and 203, and supplemental
ADS guidance.




                                                                                           16
                                                                                               Appendix II



MANAGEMENT COMMENTS




                                                                         19 October 2010
MEMORANDUM

TO:               Christine M. Byrne, CPA/s, Regional Inspector General/Pretoria

FROM:             Teresa McGhie, Acting Mission Director /s/

SUBJECT:          Audit of USAID/Mozambique’s Implementation of the President’s Malaria
                  Initiative (Report No. 4-656-10-00X-P)


This memorandum transmits USAID/Mozambique's response and comment to the Draft Report
on Audit of USAID/Mozambique's Implementation of the President’s Malaria Initiative (PMI)
sent to the Mission on October 1, 2010. USAID/Mozambique’s Mission appreciates receipt of
the draft report and the opportunity to offer clarifications and our response. We request that our
response be included in its entirety in the final report of the audit.

The overarching goal of PMI in Mozambique is to reduce malaria-related mortality by 50%
through reaching 85% of women and children in the country with selected preventive and
therapeutic evidence based interventions. It is important to note that the PMI program represents
by far the most dramatic scale up of malaria interventions in Mozambican history and requires a
paradigm shift in how the Mozambican Government and people perceive, control, treat, and
manage malaria. USAID/Mozambique is implementing an ambitious plan to change decades old
procedures, practices, and beliefs and is on track to reach PMI goals by the end of the intended
five full years of funding and implementation. USAID/Mozambique recognizes that we still face
many challenges, but we are encouraged by data from 2007 Malaria Indicator Survey (MIS),
2008 Multiple Indicator Cluster Survey (MICS) and the 2009 AIDS Indicator Survey (INSIDA)
that show significant improvement in malaria indicators in Mozambique. 21


21
     Page 10-12: President’s Malaria Initiative: Malaria Operational Plan –FY 11, Mozambique


                                                                                                   17
                                                                                       Appendix II


The unprecedented pace of scale up and vast scope of change being implemented under PMI can
not be underestimated and provide useful context to explain some of the challenges we face in
reaching our goals. USAID/Mozambique works closely with the Ministry of Health (MOH) and
the National Malaria Control Program (NMCP) to implement malaria interventions in
coordination with national and international partners. The Mission and PMI have placed a high
priority on accountability and transparency, and will continue to support the Government of
Mozambique's (GOM) monitoring and evaluation of malaria control efforts. It is important to
note that the GOM leads the national malaria control program. USAID is working through the
GOM’s existing health and supply chain system to ensure broad reach and widespread
availability of services to achieve long-term sustainability.

We appreciate the time and effort that the Regional Inspector General (RIG) devoted to conduct
the audit, as well as the professionalism of the RIG staff. We value audits and consider them as
an opportunity to improve USAID health programming. The Draft Report on Audit of
USAID/Mozambique’s Implementation of PMI raises many valid and important points and areas
of the program that require strengthening. USAID/Mozambique would like to clarify and provide
context for several issues outlined in the resultant findings and recommendations.

I. GENERAL COMMENTS AND CLARIFICATIONS

PMI goal timeframe:
PMI was launched in June 2005 as a five-year, $1.2 billion U.S. Government (USG) initiative to
scale up malaria prevention and treatment measures across 15 high-burden countries in sub-
Saharan Africa. Annual funding for PMI increased dramatically from $30 million in FY2006 to
$500 million in FY2010. Mozambique joined the five-year PMI program (FY 2006-2011) in its
second year and its first year of funding was FY2007. The fifth year of PMI funding in
Mozambique will be FY 2011 funds which, due to delays in the budgeting and allocation
process, will effectively be implemented during the 2012 fiscal year.

This audit was conducted from May 24th to June 11th 2010, when activities in Mozambique were
being implemented with FY2009 funding; FY2010 funds had not yet been disbursed. Thus, the
progress being assessed at the time of the audit represents less than three full years of
implementation of activities, totaling $56.538 million (FY2007, FY2008, and partial FY2009
funding). Given the large plus-up in FY2010 funds released September 30, 2010, it is premature
to measure PMI progress towards five year goals when the implementation period is only about
halfway completed. The FY2007-FY2009 funding received thus far only represents about 60%
of the total funding authorized for PMI over the course of its first four years. The Mission would
like to respectfully request that the statement regarding PMI funding availability, timeline and
progress towards achievement of five year goals be revised to reflect the facts stated above.
(Summary results section, p.1.)

Data and reporting issues:
The Mission agrees that data quality in the PMI/Mozambique program needs to be strengthened,
and is continually striving to improve data collection and data validation methods used to
measure the PMI program in Mozambique. Below are explanations as to how
USAID/Mozambique is addressing the issues concerning data quality.



                                                                                                18
                                                                                           Appendix II



Donor collaboration in data collection: The Mission uses a variety of data sources, both funded
by PMI and those funded by other donors to evaluate progress towards achievement of PMI
goals. Population based surveys provide the most accurate analysis of progress, but are also the
most expensive method of data collection. PMI uses the best practice of collaborating with other
donors to maximize funding for these important data sources. Examples include the UNICEF’s
Multiple Indicator Cluster Survey (MICS) in evaluating PMI’s impact indicators. The Mission
funded the malaria indicator survey (MIS) in 2007 that provided the baseline data for the PMI’s
indicators. In addition, with funding from the US Government (USG), the Cause of Death
Survey (INCAM) and AIDS Indicator Survey (INSIDA) were carried out respectively in
2007/2008 and 2009. Moreover, the USG is funding the Demographic and Health Survey (DHS)
that includes a malaria module, with preliminary data expected by end of 2011. This will provide
data to compare against the baseline data of the 2007 MIS. We would respectfully like to request
that the statement “the Mission relied primarily on studies funded by other sources” be removed
from the text. (p. 2, paragraph 2)

Indoor Residual Spraying (IRS) program data collection: USAID/Mozambique places a high
importance on data quality and is putting in place measures to improve quality of data
throughout the PMI and entire health portfolio. In particular, PMI is implementing improved
data quality and verification systems and procedures to improve the reliability of data. Specific
methods are discussed in greater detail under our response to recommendation number four.

The PMI Indoor Residual Spraying program collected data from over a half million houses. A
small margin of error in a data collection effort on this scale would not be considered significant
for program monitoring. The auditors state that, “we selected sites and sample sizes based on
time, resource and geographic constraints. Because we used judgmental sampling, the results of
these tests can not be projected to the entire populations.” It is therefore critical that the findings
be put into context. The mission would like to respectfully recommend that “Spraying Results
Were Not Valid, Reliable, or Reported Accurately” be replaced with “In Sites Visited, Spraying
Results Were Not Valid, Reliable, or Reported Accurately” (p. 8).

PMI reporting data: USAID/Mozambique had an approved strategy in place covering the period
from FY2004-FY2010, while the Country Assistance Strategy (CAS) was in the final stages of
approval (CAS FY2009-FY2014). The Country Strategic Plan from FY2004-FY2010 was in
effect and then was amended by the Strategic Statement in April 2006. Both were approved by
Washington. A Performance Management Plan (PMP) was in place for Health that covered
Malaria activities for the same period. Although FY 2009 targets in the PMP were not set,
indicators and targets were set and reported to Washington in the PPR and the PMI Annual
Reports and were reported by implementing partners.

During this transition period from one strategy to the next, the old PMPs were still valid.
Following the approval of CAS in May 2009, new assistance objectives were approved and new
PMPs were developed that included targets from the period of the strategy and actual
performance data. The new Health PMP was approved in September 2010; it complies with the
ADS and PMP toolkit including performance targets and actual performance data from FY2009
through FY2014.



                                                                                                     19
                                                                                       Appendix II



Because of differences in the period covered by the PMI Annual Report (January to December),
the Performance Plan and Report and Portfolio Implementation Review, the Mission is unclear
of the source documentation that was used for these findings to provide their feedback. We
would like the opportunity to review the source of documentation and discuss the discrepancy so
that we can respond. (p. 10-11) Given the above, the Mission would like to respectfully request
that the report rephrase the statement “Performance Results Were Not Reported Accurately” to
“Performance Results Reporting Needs Improvement” (p. 10); and rephrase “Performance
Information Was Not Managed Adequately” to “Performance Information Management Needs
Improvement.” (p. 11)

Antimalarial Drug Distribution:
The Mission is appreciative that the auditors raise the challenges associated with commodity
distribution and would like to provide context to explain situation in Mozambique. Commodity
management and distribution are critical to the success of PMI and all USAID health
programming. Both PMI and the President’s Emergency Plan for AIDS Relief (PEPFAR) are
supporting the improvement of the capacity of the Central de Medicamentos e Artigos Médicos
(CMAM) to manage stock at the central, provincial and district warehouses. A particular area of
interest on the part of MOH and CMAM is to focus on strengthening provincial level capacity to
manage commodities from central warehouses down to service delivery points. PMI and
PEPFAR jointly hired provincial pharmacy advisors to increase technical assistance and
oversight throughout each of Mozambique’s 10 provinces. The U.S. Government is also working
to implement a nationwide logistic management information system (LMIS) to improve
management and accountability in all provinces.

USAID/Mozambique ensures transportation of malaria commodities to the provincial
warehouses. From there, as the audit notes, the Mission consigns and transfers ownership of the
commodities to the Government of Mozambique in order to ensure widespread availability of
commodities through the public health facilities and promote longer-term sustainability.

Given the context described above, USAID/Mozambique would like to respectfully request that
the statement “Commodity management was inadequate” be changed to “Management of
malaria commodities, including Insecticide-Treated Bed Nets and Antimalarial Drugs needs
improvement” (p. 4). The mission believes that this statement more accurately reflects the
situation in Mozambique.

The Mission would also like to request the removal of the following statement: “Antimalarial
Drugs Were Not Distributed in Accordance With National Malaria Policy” (p. 7). Currently,
Mozambique does not have a National Malaria Policy. However, there are National Malaria
Case Management Guidelines. It should be noted that in Mozambique, first and second line
antimalarial drugs are procured and distributed according to the national malaria treatment
guidelines (normas de tratamento). Further, the findings are addressing diagnostic issues. At the
present time, the national malaria treatment guidelines do not require that antimalarial drugs be
given only for parasitologically confirmed malaria cases.




                                                                                                20
                                                                                      Appendix II


Diagnostics:
It is highly recommended to treat test-confirmed malaria cases with Artemisinin-based
Combination Therapy (ACT- Coartem) to conform to the 2009 guidelines of the World Health
Organization (WHO); the Mozambique national malaria treatment guidelines do not require this
practice in all instances. Not all countries have the capacity or resources to implement this WHO
recommendation immediately. It is important to understand that it would be highly unethical to
deny treatment to people presenting with malaria symptoms where diagnostic services are
unavailable. Mozambique did not have sufficient quantities of RDTs and microscopy support to
rigorously apply this rule. We are actively working with the national program to implement this
procedure.

Mozambique does not currently have an approved National Malaria Policy. The Mozambique
National Malaria Control Program does have treatment guidelines and training manuals that are
guiding the implementation of the new strategies to introduce rapid diagnostic tests and Coartem.
The training manual developed for the rollout of Coartem in 2009 22 suggested treatment for test-
confirmed (by microscopy or malaria rapid diagnostic kits -RDTs) malaria cases. However, the
current treatment guidelines (normas de manejo dos casos de malária em moçambique 23 ) do not
require that antimalarial drugs be given only for test-confirmed malaria cases. PMI is working
closely with the National Malaria Control Program to update the current guidelines and finalize
the National Malaria Policy. The implementation of these new procedures is ongoing and is
requiring intensive training throughout the country to change the decades old practice of
immediate treatment of all suspected cases of malaria.

Given the above, we propose to remove the statement “Antimalarial drugs not dispensed in
accordance with the national malaria policy”. (p. 7)

Drug resistance: The development of drug resistance is a very complicated, multi-factorial
situation and is a problem for any anti-infective agent. WHO recommends that the best way to
avoid promotion of antimalarial drug resistance is through the use of a combination therapy, and
to avoid the use of artemisinin based immunotherapy. PMI is only providing artemether-
lumefantrine (CoartemR) which is a combination therapy, not a monotherapy. Therefore PMI is
promoting a drug combination and implementation practices to reduce the development of drug
resistance in Mozambique.


II. USAID/MOZAMBIQUE RESPONSE TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Mozambique develop and implement a
plan with milestones to provide training or technical assistance to appropriate warehouse and
health-care facility staff that store and dispense USAID-funded antimalarial drugs and
insecticide-treated bed nets so that staff are capable of properly maintaining inventory records
and managing stocks effectively.


22
     MISAU 2009: Guião do formador formação sobre manejo de casos de malária
23
     MISAU 2005: Normas de manejo dos casos de malária em Moçambique



                                                                                               21
                                                                                        Appendix II


The Mission concurs with Recommendation No.1 with the caveat that USAID consigns and
transfers ownership of most malaria commodities to the Government of Mozambique. This is
because the public health system in Mozambique has the widest reach in country, particularly to
remote and underserved areas. The public sector supply chain is complex and faces serious
capacity challenges. USAID does not track all commodities at all stages because it would be
cost prohibitive to do so. Instead, USAID works with the government to develop capacity and
strengthen the system. For example, a logistics management information system, supported by
USAID partners, is being implemented in the warehouses all the way to the district level.
Training modules and Standard Operating Procedures (SOPs) on Good Warehouse Management,
including picking and receiving, management of stock status, stock counting inventory,
dispatching, and inventory investigations have been developed. JSI/DELIVER will conduct a
two-day workshop for training of trainers in procedures on the management and control of drugs
in the framework of strengthening the capacity of monitoring and evaluation. This workshop is
planned to be carried out by the end of 2010 and will include USAID implementating partners.
The workshop will cover all commodities, including malaria commodities. Warehouse staff have
been and will continue to be trained to properly maintain inventory records and manage stocks
effectively. Healthcare staff will also be trained during supportive supervision visits in inventory
and stock management. Implementing partners have been working with provinces to train health
worker and health-care facility staff in logistics management. USAID will continue to work with
implementing partners and ensure commodity management training is incorporated into their
workplans.

JSI/DELIVER has been supporting training in logistics management through the Presidential
Malaria Initiative (PMI) funds. Although the training was focused on management of malaria
medicines, the training includes information and training in general logistics management.
Lessons-learned from this training are now being applied across all areas of health commodity
management.

Recommendation No. 2: We recommend that USAID/Mozambique develop and
implement a plan to provide refresher training or technical assistance on the importance
of malaria testing to all health-care facilities that dispense USAID-funded antimalarial
drugs.

The Mission concurs with Recommendation No. 2, as relevant activities are included in FY10
and FY11 Malaria Operational Plans. In addition, during the rollout of the first line malaria
treatment, more than 12,000 health care workers were trained in malaria treatment as well as
antimalarial stock management. Currently, supportive supervision, refresher training and malaria
microscopy training plans are being developed by USAID partners and will start being
implemented in the first quarter of 2011.

Recommendation No. 3: We recommend that USAID/Mozambique provide training,
technical and operational assistance to the National Malaria Control Program to
develop and implement a plan to provide all health-care facilities with tools to comply
with Mozambique’s national malaria policy.




                                                                                                 22
                                                                                         Appendix II


The Malaria Case Management Guidelines have been approved by the Minister of
Health. USAID/Mozambique, through the PMI, will print copies for distribution to all
health facilities. In addition, the activities in Recommendation No. 2 will cover largely
the concerns identified under Recommendation No. 3. Therefore, the Mission requests
removal of this Recommendation No. 3 in the final report.

Recommendation No. 4: We recommend that USAID/Mozambique develop and
implement a plan with milestones to train appropriate staff of the indoor residual
spraying program to record data, maintain source documents, maintain data systems,
and report program results properly.

Based on the preliminary audit recommendations, the PMI instituted a Data Quality
Assessment (DQA) audit on the IRS project. During the 2010 IRS campaign and in
future, PMI will embark on making improvements in the information management
system. PMI in collaboration with the NMCP, DPS in Zambezia and other partners is
implementing the following 24 :

•    Establish an efficient data flow system that will carry accurate and timely information from
     the spray operator level to the provincial level with minimum opportunities for error;
•    Ensure the availability of the necessary human and material resources. Computers were
     placed in each district. An Access database has been developed and installed in each district
     to capture the daily spray operator reports;
•    Develop a data security and storage system for future reference of IRS data. Every computer
     is password protected, and the computer rooms are only accessible to authorized personnel;
•    Introduce new data collection and entry tools that will promote efficiency at all levels of the
     M&E system and enable PMI and NMCP to track performance in real-time throughout the
     spray round. A routine data quality assurance system will be implemented with spot-checks,
     data verification and tracing. A household IRS card has been introduced and linked to daily
     spray operator card. This system will significantly improve tracing and verification down to
     the beneficiary level;
•    Conduct training and supervision of data recording and data entry for building capacity in
     IRS M&E and to ensure accuracy of data at all levels;
•    Improve filing and archiving to facilitate data tracing and verification. Metal filing cabinets
     with locks have been put in each district office to store IRS documentation (spray operator
     daily spray cards, team leader daily spray cards, supervisor checklists, etc). Each office has
     both USB storage devices and CD-ROMs for backing up electronic data each day.

Recommendation No. 5: We recommend that USAID/Mozambique establish and
implement written procedures to ensure that program results reported by implementing
partners in quarterly and annual reports are consistent with the mission’s performance
indicators and annual performance report.



24
  RTI 2010: Indoor Residual Spraying 2 (IRS-2) - Task Order One Mozambique 2010 Work Plan &
Budget. Submitted on August 31st, 2010



                                                                                                  23
                                                                                       Appendix II


The Mission concurs with this recommendation as the approved PMP on September 2010
reflects this audit recommendation. The Mission has instituted an annual process whereby
data collection methodology and target setting is reviewed for accuracy prior to the
submission of the Performance Plan and Review (PPR). USAID/Mozambique continues
to work with implementing partners to strengthen data management by providing
ongoing training in performance indicators, collections methodology and steps to ensure
reports are consistent with Mission’s performance indicators and annual performance
reporting. All implementing partners are informed and are required to report results on a
quarterly basis using standardized reporting template. USAID’s Performance
Management Plan (PMP), which incorporates the PMI activities and other health
activities (HIV/AIDS, family planning and reproductive health, maternal and child
health, tuberculosis, etc.), contains 50 performance indicators which assess program
outcomes. The PMP notes for every indicator the source of and responsibility for
collection of the performance data. In many, but not all cases, the source and
responsibility include implementing partners. The PMP has been disseminated current
partners and will be disseminated to future implementing partners once awards are
completed, and will be monitored throughout the implementation period by
AOTRs/COTRs as well as reviewed by senior USAID management during semi-annual
portfolio reviews.

Based on the action taken above to address this recommendation and given that no further
action is currently required, the Mission requests closure of this recommendation.

Recommendation No. 6: We recommend that USAID/Mozambique provide training to mission
staff on the requirements for data quality assessments outlined in the Automated Directives
System and develop policies and procedures to make data quality assessments easily accessible
to mission staff and implementing partners

The Mission concurs with this recommendation. The newly approved PMP (September
2010) includes all PMI indicators being reported to USAID/Washington in the Mission’s
Performance Plan and Report (PPR) on an annual basis. The appropriate AOTR/COTR or
Activity Manager will conduct data Quality Assessments on each individual indicator
according to the schedule in the PMP.

The Mission has hired a monitoring and evaluation consultant to provide additional
support to AOTRs/COTRs and Activity Managers to conduct data quality assessment for
all performance indicators including those under the President’s Malaria Initiative and the
indicators that were not subjected to data quality assessment during last two years will be
included into this assessment.

The Mission’s Monitoring and Evaluation Specialist has just conducted (October 20,
2010) a mini-workshop in data quality assessment for all AOTRs/COTRs and Activity
Managers so they are better prepared to effectively implement these roles and
responsibilities. A follow-up workshop is scheduled to train the remaining group of staff
who missed the first session and follow-up work with each AOTR/COTR will occur to
verify that all DQAs are completed in an adequate manner following the ADS.



                                                                                               24
                                                                                        Appendix II



All DQAs shall be completed by November 30, 2010, and can be forwarded to the
Regional Inspector General/Pretoria to close this recommendation.

Based on the action taken above to address this recommendation and given that no further
action is currently required, the Mission requests that this Recommendation No. 6 be
closed upon issuance of the final report.

Recommendation No. 7: We recommend that USAID/Mozambique develop and implement a
schedule to conduct periodic site visits that entail data quality testing and verification, and
document the results of those visits.

The Mission concurs with this recommendation. The new PMP approved in September
2010 includes a plan to conduct data quality assurance of each PMI indicator during sites
visits when appropriate and feasible as well as document the results in trip reports.
Currently the Mission has issued two Mission Orders (Site Visit Reporting dated October
27, 2007 and Performance Monitoring and Evaluation dated August 8, 2009) containing a
site visit checklist and a section that defines specific procedures regarding the completion
of data quality testing and verification during periodic field trips. A quarterly site visit
schedule has already been compiled for the past two quarters and will continue to be
maintained. This quarterly site visit schedule will continue to be managed and updated.
Additionally, the newly hired Site Monitoring and Evaluation Specialist will be
responsible for verifying that periodic site visits happen and are documented and reported
adequately.

Based on the actions taken above to address this recommendation and given that no
further action is currently required, the Mission requests that this Recommendation No. 7
be closed upon issuance of the final report.




                                                                                                  25
                                                                                               Appendix III


Performance Indicators
Fiscal Year (FY) 2009 Reported Results and Number of Items Tested


                                                           FY 2009
                                                                             Number of Items
                   Performance Indicator                   Reported
                                                                                Tested
                                                            Result
1 Number of insecticide-treated bed nets
                                                           1,000,000              Not tested
purchased with U.S. Government (USG) funds*

2 Number of houses sprayed with indoor                                 †           35,317
                                                             563,473
residual spraying with USG support                                           (28,050 confirmed)

3 Number of insecticide-treated bed nets                                           44,080
                                                           1,000,000
distributed‡ or sold with USG funds                                          (44,080 confirmed)

4 Number of artemisinin-based combination
                                                                                  689,760
treatments purchased and distributed‡ through              2,400,000
                                                                            (687,760 confirmed)
USG-support

5 Number of people trained with USG funds in
                                                              14,600              Not tested
malaria treatment or prevention*
Source: FY 2009 full performance plan and report.
*
    Not audited.
†
  The mission reported 563,473 in the FY 2009 full performance plan and report based on RTI
International’s preliminary results. According to the Chief of Party, RTI International updated the reported
number to 571,194 following a data verification process that occurred after the mission’s report was
issued.
‡
  Antimalarial drugs and insecticide-treated bed nets were considered to be distributed once they were
received and inventoried at the provincial level.




                                                                                                     26
                                                                                              Appendix IV


Outcome Indicators
Compared With Overall Fiscal Year (FY) 2010 Targets

                                                 Malaria       Multiple     Available     President’s
                                                Indicator     Indicator      Results        Malaria
                                                 Survey        Cluster      FY 2009        Initiative
                  Indicator
                                                 FY 2007       Survey          %            FY 2010
                                                    %          FY 2008                      Targets
                                                                  %                            %
Proportion of households with at least one
                                                   15.8          30.7         50.0*             90.0
insecticide-treated net (ITN)

Proportion of children under 5 who slept
                                                   6.7           22.8         33.3*             85.0
under an ITN the previous night

Proportion of pregnant women who slept
                                                   7.3            ---          ---              85.0
under an ITN the previous night

Proportion of women who received two or
more doses of intermittent preventive
                                                   16.2          43.1         33.0+             85.0
treatment for pregnant women during their
last pregnancy in the last 2 years

Proportion of targeted houses adequately
sprayed with a residual insecticide in the         52.4           ---         47.8‡             85.0
last 12 months†

Proportion of children under 5 with fever in
the last 2 weeks who received treatment
                                                   17.6          22.7          ---              85.0
with an antimalarial within 24 hours of
onset of fever

Proportion of children under 5 with fever
in the last 2 weeks who received treatment
                                                   4.5            ---          ---              85.0
with an artemisinin-based combination
treatment within 24 hours of onset of fever

Source: FY 2011 Malaria Operational Plan.
Note: Data in this table have not been audited.
*
    Data from PSI Mozambique’s long-lasting insecticide-treated net (LLIN) TRaC 2009 study.
†
  RTI International, USAID/Mozambique’s implementing partner for indoor residual spraying activities,
reported 82 percent and 109 percent coverage of targeted households in the geographic area supported
by USAID/Mozambique during the 2008 and 2009 spray seasons, respectively. Figures reported in the
table refer to national indoor residual spraying coverage, in line with the PMI policy to measure progress
that results from the combined efforts of host-country governments and other partners involved in malaria
control.
‡
    Data from an AIDS Indicator Survey (INSIDA) carried out in July 2009.




                                                                                                       27
U.S. Agency for International Development
         Office of Inspector General
       1300 Pennsylvania Avenue, NW
           Washington, DC 20523
              Tel: 202-712-1150
              Fax: 202-216-3047
             www.usaid.gov/oig
